GR-70-97-004

U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
Community Oriented Policing Services
AHEAD and UHP
Grants to the Philadelphia, Pennsylvania Police Department
Grant Number 95CCWX0408
 
Report Number GR-70-97-004
 
August 1997
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services
(COPS) to the Philadelphia, Pennsylvania Police Department. Philadelphia received an
initial $11,475,000 grant under the Accelerated Hiring, Education, and Deployment (AHEAD)
program to hire or rehire 153 additional sworn police officers. In addition, the City
received a $30,000,000 COPS Universal Hiring Program (UHP) Supplemental Award for 400
officers. 

The Philadelphia Police Department properly managed some aspects of the COPS grants:



Budgeted funds for police services remained above the level of FY 1994, the year before
      the initial COPS AHEAD grant award. 




Grant funds were used to enhance the Philadelphia Police Department's community policing
      efforts. The number of officers performing community policing activities increased by the
      number of officers funded under the grants.



However, Philadelphia violated some grant conditions:



The number of budgeted city-funded sworn-officer positions decreased from 6,166 for FY
      1995 (the baseline for AHEAD grants) to 6,091 for FY 1996, recovering to only 6,114 in FY
      1997. The decline in the number of city-funded sworn-officer positions indicates that
      Philadelphia improperly supplanted local funds with COPS grant funds. Consequently, we
      question about $2.5 million in grant reimbursements received by Philadelphia. 




On its Department Initial Report, Philadelphia improperly reported the actual number of
      sworn-officers employed rather than the funded number of sworn-officer positions as
      required.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####